APPLICATION AND
SOLICITATION
DISCLOSURE

PLATINUM MASTERCARD / SECURED
MASTERCARD / PLATINUM REWARDS MASTERCARD /
UTA REWARDS MASTERCARD / UTA BLAZE MASTERCARD
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Platinum Mastercard

0.00%

Introductory APR for a period of six billing cycles.

After that, your APR will be
creditworthiness.

8.90% to 17.90% , based on your

Secured Mastercard

11.90%
Platinum Rewards Mastercard

12.90% to 17.90% , based on your creditworthiness.
UTA Rewards Mastercard

12.90% to 17.90% , based on your creditworthiness.
UTA Blaze Mastercard

8.90% to 17.90% , based on your creditworthiness.
APR for Balance Transfers

Platinum Mastercard
4.90% , 7.90% or 9.90% Introductory APR for a period of six billing
cycles, based on your creditworthiness.
After that, your APR will be 8.90% to 17.90% , based on your
creditworthiness.
Secured Mastercard
11.90%
Platinum Rewards Mastercard
12.90% to 17.90% , based on your creditworthiness.
UTA Rewards Mastercard
12.90% to 17.90% , based on your creditworthiness.
UTA Blaze Mastercard
8.90% to 17.90% , based on your creditworthiness.

SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

04219677-MXC10-P-1-022519 (MXC101-E)

APR for Cash Advances

Platinum Mastercard
4.90% , 7.90% or 9.90% Introductory APR for a period of six billing
cycles, based on your creditworthiness.
After that, your APR will be 8.90% to 17.90% , based on your
creditworthiness.
Secured Mastercard
11.90%
Platinum Rewards Mastercard
12.90% to 17.90% , based on your creditworthiness.
UTA Rewards Mastercard
12.90% to 17.90% , based on your creditworthiness.
UTA Blaze Mastercard
8.90% to 17.90% , based on your creditworthiness.

How to Avoid Paying Interest on
Purchases

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.

For Credit Card Tips from the
Consumer Financial Protection Bureau

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee
- Annual Fee - Platinum Mastercard,
Platinum Rewards Mastercard , UTA
Rewards Mastercard
- Annual Fee - Secured Mastercard
- Annual Fee - UTA Blaze Mastercard
Transaction Fees
- Foreign Transaction Fee
Penalty Fees
- Late Payment Fee
- Returned Payment Fee

None

$30.00
$50.00
2.00% of each transaction in U.S. dollars completed outside the U.S.
2.00% of each transaction in U.S. dollars completed in a foreign currency
Up to $25.00
Up to $25.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (including new purchases)."
Promotional Period for Introductory APR - Platinum Mastercard:
The Introductory APR for purchases, balance transfers and cash advances will apply to transactions posted to your
account during the first six months following the opening of your account. Any existing balances on Texas Trust Credit
Union loan or credit card accounts are not eligible for the Introductory APR for balance transfers.
Loss of Introductory APR:
We may end your Introductory APR for purchases, balance transfers and cash advances and apply the prevailing nonintroductory APR if you are 60 days late in making a payment.
Effective Date:
The information about the costs of the card described in this application is accurate as of: February 26, 2019
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
For California Borrowers, the Platinum Mastercard, Secured Mastercard, Platinum Rewards Mastercard , UTA
Rewards Mastercard and UTA Blaze Mastercard are secured credit cards. Credit extended under this credit card
account is secured by various personal property and money including, but not limited to: (a) any goods you
SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

04219677-MXC10-P-1-022519 (MXC101-E)

purchase with this account, (b) any shares you specifically pledge as collateral for this account on a separate
Pledge of Shares, (c) all shares you have in any individual or joint account with the Credit Union excluding
shares in an Individual Retirement Account or in any other account that would lose special tax treatment under
state or federal law, and (d) collateral securing other loans you have with the Credit Union excluding dwellings.
Notwithstanding the foregoing, you acknowledge and agree that during any periods when you are a covered
borrower under the Military Lending Act your credit card will be secured by any specific Pledge of Shares you
grant us but will not be secured by all shares you have in any individual or joint account with the Credit Union.
For clarity, you will not be deemed a covered borrower if: (i) you establish your credit card account when you are
not a covered borrower; or (ii) you cease to be a covered borrower.
Other Fees & Disclosures:
Late Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less, if you are 10 or more days late in making a
payment.
Annual Fee - Secured Mastercard:
$30.00.
Annual Fee - UTA Blaze Mastercard:
$50.00.
Returned Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less.
Returned Convenience Check Fee:
$25.00 or the amount of the returned convenience check, whichever is less.

Mastercard and the Mastercard Brand Mark are registered trademarks of Mastercard International Incorporated.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

04219677-MXC10-P-1-022519 (MXC101-E)

